Golden 1 Credit Union
8945 Cal Center Drive
Sacramento, CA 95826
1-877-GOLDEN 1 (1-877-465-3361)
Telecommunications Devices for the Deaf: 916-363-7407
golden1.com

PLATINUM REWARDS CREDIT CARD AGREEMENT
IN THIS AGREEMENT, "YOU" AND "YOUR" MEAN ANY PERSON WHO ACCEPTS THIS AGREEMENT OR USES THE CARD. THE "CARD" MEANS ANY CREDIT CARD ISSUED TO YOU OR THOSE
DESIGNATED BY YOU UNDER THE TERMS OF THIS AGREEMENT. "ACCOUNT" MEANS YOUR CREDIT CARD ACCOUNT. "WE", "US", "OUR" AND THE "CREDIT UNION" MEANS GOLDEN 1 CREDIT
UNION OR ITS SUCCESSORS. BY USING OR ACTIVATING YOUR CARD, YOU AGREE TO ALL OF THE TERMS AND CONDITIONS SET FORTH HEREIN.

THE GRANTING OF THIS SECURITY INTEREST IS A CONDITION FOR
THE ISSUANCE OF CREDIT UNDER THIS AGREEMENT.
YOU SPECIFICALLY GRANT US A CONSENSUAL SECURITY INTEREST
IN ALL INDIVIDUAL AND JOINT ACCOUNTS YOU HAVE WITH US NOW
AND IN THE FUTURE TO SECURE REPAYMENT OF CREDIT EXTENDED
UNDER THIS AGREEMENT. YOU ALSO AGREE THAT WE HAVE SIMILAR
STATUTORY LIEN RIGHTS UNDER STATE AND/OR FEDERAL LAW. IF
YOU ARE IN DEFAULT, WE CAN APPLY YOUR SHARES TO THE
AMOUNT YOU OWE.
Shares and deposits in an Individual Retirement Account or any other account
that would lose special tax treatment under state or federal law if given are not
subject to this security interest.
YOUR RESPONSIBILITIES
Promise To Pay. You promise to pay us in U.S. dollars for (a) all purchases, cash
advances, and balance transfers made by you or anyone whom you authorize to
use the Card; (b) all interest charges and all other charges or fees as allowed by
law; (c) collection costs and attorney's fees as permitted by applicable law, and
any costs incurred in the recovery of the Card as allowed by applicable law; and
(d) credit in excess of your credit limit that we may extend to you. We may limit or
close your Account, but the terms of this Agreement will apply until you repay us in
full.
Joint Accounts. Each of you will be responsible, jointly and severally, for the
repayment of amounts owed, regardless of who initiated any transaction under the
Account. If you close your joint Account, you will continue to be jointly and
severally obligated to repay the outstanding balance of the Account under the
terms of this Agreement.
Others Using Your Account. If you request, we may issue Cards to authorized
users that allow access your Account. Use of your Account by an authorized user
is subject to the terms of this Agreement. You understand that an authorized user
will have access to your Account and Account information. You are responsible for
any use of your Account by an authorized user or anyone else that you permit to
use your Account. You must notify us if you want an authorized user to stop using
your Account. If an authorized user is removed from your Account, you will be
mailed a new Card with a new number.
Notification of Address Change. You will notify us promptly if you change your
address for any reason. In order to prevent identity theft, your identity may need to
be verified before we act upon the notification.
USING YOUR ACCOUNT
Your Card. Please sign the Card immediately after you receive it. The Card is
valid during the dates provided on the front. We may replace your Card with
another card at any time. You agree to take reasonable steps to prevent the
unauthorized use of your Card and Account. Each Card issued on your Account is
our property, and you agree to return it to us or destroy it upon our request. Use of
your Card is subject to the terms of the Visa Core Rules and Visa Product and
Service Rules, as those rules may be revised from time to time.
Using Your Card. You can purchase or lease goods and services from any
merchant who honors your Card, and you may obtain cash advances from any
Golden 1 branch or other financial institution or Automated Teller Machine ("ATM")
that accepts the Card, up to your allowable limit. You agree not to present your
Card or obtain a cash advance for any extension of credit in excess of your
available credit limit; however, if you do exceed your credit limit, you agree to make
immediate payment sufficient to bring the balance below the credit limit. Certain
purchases and cash advances require authorization prior to completion of the
transaction. In some cases, you may be asked to provide identification. If our
system is not working, we may not be able to authorize a transaction, even though
you have sufficient credit available. Also, for security reasons, we may block the
use of your Card in certain countries or geographic areas. We will have no liability
to you or others if any of these events occur.
Credit Limit. Your credit limit is disclosed to you when you open your Account and
on each monthly billing statement. Purchases will not be authorized if they exceed
your available credit limit. Your Account balance may exceed your credit limit due
to interest and/or fees that are imposed on your Account.
You must pay the excess amount immediately. You are responsible for the total
balance at all times, even if your balance exceeds your credit limit. We may
change your credit limit at any time. If we accept a payment from you in excess of
9011 LASER FPDF FI1000406 Rev 5-2019

your outstanding balance, your available credit limit will not be increased by the
amount of the overpayment, nor will we be required to authorize transactions for
an amount in excess of your credit limit.
Personal Identification Number (PIN). We may issue a Personal Identification
Number (PIN) for use with your Card. This PIN is confidential and should not be
disclosed to anyone. You may use your PIN and your Card to access your
Account, and all sums advanced will be added to your Account balance. In the
event a use of your PIN constitutes an Electronic Funds Transfer, the terms and
conditions of your Electronic Funds Transfer Agreement may affect your rights.
Consumer Purposes. You may use your Account only for personal, family, or
household purposes. You are not permitted to use your Account for business or
commercial purposes. If you use your Account for business purposes, this
Agreement still applies and you must pay us for the transactions incurred. In
addition, we may close your Account.
Impermissible Transactions. We prohibit the use of your Account for any
transaction that is unlawful under applicable laws. You must not use or try to use
your Card and/or Account for Internet gambling or any transactions that are illegal
or not permitted by us. Any such use will constitute an event of default under this
Agreement. Impermissible transactions include activities that abuse our products
and services, including, without limitation, excessive cash- equivalent transactions
or a pattern of payments in excess of your outstanding balance, and any other
activities deemed by us to be suspicious, fraudulent, dishonest or deceptive. If you
use your Account for such transactions, you agree that we will have no liability or
responsibility for those transactions. In such case, this Agreement still applies and
you must pay us for those transactions according to the terms of this Agreement.
You also agree that we will have no liability or responsibility if we decline such
transactions. You may also have to reimburse the payment card network and us
for any damages and/or expenses resulting from that use. If we have reason to
believe that your Card is used for unlawful or fraudulent activities, Internet
gambling, or transactions deemed by us impermissible or likely to cause a loss to
Golden 1, we may, at our option, restrict or suspend access to your Account or any
of its features, or close your Account without prior notice.
Third Party or Mobile Devices. Smart phones, tablets, and other electronic
devices allow you to store or electronically present your Account information, and
engage in credit transactions without presenting your Card (such as through a
mobile wallet). Any purchases or transactions made through such third party or
mobile devices are covered by this Agreement and subject to its terms and
conditions. We do not control third party or mobile devices and cannot guarantee
the performance of any such device or any third party. You agree to protect the
security of the device the same as you would your Card.
Transaction Limits. Transaction limits, including, without limitation, on cash
advances at an ATM, may be imposed for security reasons by us or ATM owners.
Notice Regarding ATM Fees by Others. When you use an ATM not owned by
us, you may be charged a fee by the ATM operator of any network used to
complete the transaction. You may be charged a fee for a balance inquiry even if
you do not complete a funds transfer. Any such fees must be displayed at the ATM
or point of sale terminal location.
PAYMENTS AND FEES
Billing Statements. You will receive a billing statement in the mail each month
there is a balance on your Account. You may receive your billing statements
electronically by enrolling in Visa Online Statements by signing on to your online
account at www.golden1.com. Your billing statement will provide instructions for
making payments, including the amounts due and the due date for receiving your
payment. If applicable, your billing statement will show your minimum payment
amount, which includes any past due amounts. Your payment due date is typically
the same day of the month every month. You may request a change to your
monthly due date.
Minimum Monthly Payments. To avoid a late payment fee, you must pay us at
least the minimum payment amount within 15 days after the date and time
provided in the billing statement. The monthly minimum payment will equal 2% of
the balance on the date the billing cycle closes or $10.00, whichever is greater. If
the balance is less than $10.00, your minimum payment will equal that amount.
You also agree to pay any amount which is past due or over your credit limit. In
addition to the minimum payment due, you may pay all or any part of the entire
outstanding balance on your Account at any time. You can pay down balances
faster by paying more than the minimum payment on your Account.

page 1 of 4

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

IN THIS AGREEMENT, "YOU" AND "YOUR" MEAN ANY PERSON WHO ACCEPTS THIS AGREEMENT OR USES THE CARD. THE "CARD" MEANS ANY CREDIT CARD ISSUED TO YOU OR THOSE
DESIGNATED BY YOU UNDER THE TERMS OF THIS AGREEMENT. "ACCOUNT" MEANS YOUR CREDIT CARD ACCOUNT. "WE", "US", "OUR" AND THE "CREDIT UNION" MEANS GOLDEN 1 CREDIT
UNION OR ITS SUCCESSORS. BY USING OR ACTIVATING YOUR CARD, YOU AGREE TO ALL OF THE TERMS AND CONDITIONS SET FORTH HEREIN.

Application of Payments. We will apply your payments first to finance charges,
then to late fees (if any), and then to the principal balance. All payments in excess
of the minimum monthly payment will be applied first to the balance with the
highest interest rate, and then to each successive balance with the next highest
interest rate, until the payment is exhausted.
Method of Payment. You may pay by check using the remittance coupon on your
billing statement, by automatic payment from your Golden 1 checking account, by
automatic payment from an account with another financial institution, or online by
signing in to your Online Banking account at www.golden1.com. You may also pay
in person at any Golden 1 branch. Payments received in person by an employee
at a Golden 1 branch no later than close of business on any business day will be
credited to your Account effective on that day. Payments received after the close
of business on any business day will be credited on the next business day. We do
not accept cash payments through the mail. All payments are subject to verification
and collection by Golden 1. We may accept and process any payments marked
“paid in full” without losing our rights. All payments must be in U.S. Dollars.
As long as you make your payment in accordance with the instructions in your
billing statement by the date and time it is due, we will generally credit the payment
to your Account as of the day it is received. If you do not follow our payment
instructions, we may not accept your payment or there may be a delay in crediting
your Account.
Late or Partial Payments. Any payment that delays the reduction of your balance
will increase your total interest costs. Partial payments or prepayments will not
delay your next scheduled payment - you will still need to make the minimum
scheduled payment by the next scheduled due date to keep your Account current.
We may accept late payments, partial payments, checks or money orders marked
"payment in full" and such action shall not constitute final settlement of your
Account or a waiver or forgiveness of any amounts owing under this Agreement.
Liability for Payments. If your Account is cancelled or closed, whether by you or
us, you remain obligated to pay the outstanding balance plus any interest charges,
fees and other charges imposed on your Account. Any time your payment is
returned for insufficient funds, we may place a temporary freeze on all or part of
the credit available to you under this Agreement until your payment is actually
collected by us.
FEES AND FOREIGN CURRENCY CONVERSION
Fees. In addition to the interest charges set forth herein, you agree to also pay any
and all fees that you incur as disclosed to you on your Credit Card Account
Opening Disclosure or similar disclosures (as may be amended from time to time),
or as disclosed to you during the term of your Account, and the following fees:
Late Payment Fee: Up to $15
Expedited Card Fee: $18
Copy of Billing Statement of Transaction Receipt (sales slip): $10
Foreign Transactions; Currency Conversion. Purchases and cash advances
made in foreign currencies will be billed to you in U.S. dollars. The conversion rate
in dollars will be a rate selected by the card network from a range of rates available
in wholesale currency markets for the applicable central processing date, which
rate may vary from the rate the card network itself receives, or the governmentmandated rate in effect for the applicable central processing date in each instance.
Conversion may occur after the date of the transaction, and the conversion rate in
effect on the processing date may differ from the rate in effect on the transaction
date or posting date. All transactions processed outside of the United States
(which may include internet transactions) will be charged a foreign transaction fee
in the amount disclosed on your Credit Card Account Opening Disclosure (as
amended from time to time).
ANNUAL PERCENTAGE RATES AND INTEREST CHARGES
Annual Percentage Rate (“APR”). We use APR to calculate interest charges on
your Account. The APR is a variable rate and may increase or decrease based on
the U.S. Prime Rate as published in the Money Rates section of The Wall Street
Journal. In the event that the Index ceases to be published, changes to the APR
will be related to a comparable Index. The APR for purchases, balance transfers,
and cash advances, applicable to your Account is determined by adding a Margin,
as set forth in the Credit Card Account Opening Disclosure, to the Index in effect
as of the first day of each billing cycle.
Any increase or decrease to the APR may result in changes to the number of
payments required to repay the unpaid balance.
Interest Charges. You agree to pay interest at the rate(s) disclosed to you at the
time you open your Account and as may be changed from time to time in
accordance with applicable law. We calculate interest on your Account by applying
the periodic rate to the Average Daily Balance. To determine the Average Daily
Balance, we take the beginning balance each day, add any new purchases, cash
advances, balance transfers or other advances, fees and unpaid interest charges,
and subtract any payments, or credits. This gives us the daily balance. Then, we
add up all the daily balances for the billing cycle and divide that by the number of
days in the billing cycle. This gives us the Average Daily Balance. At the end of
each billing cycle, we determine your interest charge by multiplying your Average
Daily Balance by the monthly periodic rate (your applicable APR divided by 12). In
9011 LASER FPDF FI1000406 Rev 5-2019

general, interest charges begin to accrue from the date of transaction or the date
the transaction posts to your Account. Interest charges accrue on every unpaid
amount until it is paid in full. Interest will be assessed on fees and penalties.
Unless otherwise stated, we will charge interest starting on the transaction date for
all cash advances and balance transfers. Transaction fees are also included in the
calculation of interest charges. If any interest charge is due and not paid, it will be
added to the principal and thereafter bear interest as the principal.
Grace Period on Purchases Only: You can avoid interest charges on purchases
by paying the entire statement balance for purchases each month by the date on
which the payment is due. Otherwise, the balance for purchases on your Account,
and subsequent advances from the date they are posted to the Account, will be
subject to an interest charge. You cannot avoid interest charges on cash
advances, balance transfers and transaction fees; even if you pay the entire cash
advance balance or balance transfer balance by the payment due date, you will
incur the interest charges accrued from the date the cash advance or balance
transfer is posted to your Account.
CANCELLED, LOST OR STOLEN CARDS
Termination; Change-in-Terms. We may, by written notice, terminate, cancel, or
revoke your Account, suspend your ability to make charges or cancel any feature
of your Account or your Card at any time, subject to applicable law, even if you are
not in default. You may terminate your Account by written notice. Termination by
either party shall not affect your obligation to repay any balance on your Account
resulting from use of the Card as well as interest charges and fees incurred. We
may change the terms of this Agreement, including the method of calculating the
periodic rate, at any time, by written notice, subject to applicable law. Use or
activation of the Card constitutes agreement and acceptance of any change in
terms, unless applicable law requires otherwise. Our failure to exercise any of our
rights or to take any action shall not constitute a waiver of those rights, or an
amendment or change in any of the terms of this Agreement.
Effect of Cancellation. Cancellation or revocation of your Card will not affect your
obligation to pay any and all amounts due under this Agreement. If your Account is
closed or suspended for any reason, you must stop using your Card. You must
destroy all cancelled or expired Cards or return them to us upon request. You must
also cancel all billing arrangements to the Account. You will be liable for any
automated or recurring charges to your Account even if they are charged after
your Account is closed. You can limit your liability by destroying or returning the
Card(s) to us and cancelling any automated or recurring charges to your Account.
Unauthorized Use. You agree to take reasonable steps to prevent the
unauthorized use of your Card and Account. "Unauthorized use" means the use of
the Card by someone other than you who does not have actual, implied or
apparent authority for such use, and from which you receive no benefit. For your
protection, we highly recommend that you continually monitor your monthly billing
statements to identify any unauthorized transactions. You will not be responsible
for charges made to your Account that are found by us to be unauthorized if you
notify us of such charges within 60 days after the transmittal of the periodic billing
statement where such charges appear. If your Card and/or Account is used
fraudulently, you agree to assist us in our investigation. Your help includes giving
us documents that we ask for and that are acceptable to us.
If Your Card is Lost or Stolen or if an Unauthorized Use Occurs. You agree to
notify us immediately if your Card is ever lost or stolen or if an unauthorized use or
fraud may have occurred.
To report a lost or stolen card or suspected unauthorized use, please call us at 1877-GOLDEN 1 (1-877-465-3361). If you are on vacation or out of the country,
Visa offers an emergency credit card replacement service. To contact Visa
regarding emergency credit card replacement, please call 1-800-VISA-911 (1-800847-2911), 24 hours a day, 7 days a week. You also agree to assist us in
determining the facts, circumstances and other pertinent information relating to
any loss, theft or possible unauthorized use of your Card and comply with such
procedures as we may require in connection with our investigation.
DEFAULT; ACCELERATION; CREDIT SUSPENSION; COLLECTION COSTS.
Default: The following provision applies to borrowers in Idaho, Kansas, and
Maine: You will be in default if (1) you do not make a payment of the required
amount when due; or (2) we believe the prospect of payment, performance, or
realization on any property given as security is significantly impaired.
The following provision applies to borrowers subject to the Wisconsin
Consumer Act: You shall be in default under this Agreement if any of the following
occur: (a) you fail to make a payment when due on 2 occasions within any 12month period; OR (b) you breach any term or condition of this Agreement, which
breach materially impairs your ability to pay amounts when due or materially
impairs the condition, value, or protection of our rights to or in any collateral
securing this transaction.
The following provision applies to all other borrowers: You will be in default if:
(1) you fail to make any payment on time; (2) you fail to keep any promises you
have made under this Agreement or under other Agreements you have with us; (3)
you die; (4) you file a petition in bankruptcy or have a bankruptcy petition filed
against you, or if you become involved in any insolvency, receivership or custodial
proceeding; (5) anyone attempts to take any of your funds held by us via legal

page 2 of 4

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

IN THIS AGREEMENT, "YOU" AND "YOUR" MEAN ANY PERSON WHO ACCEPTS THIS AGREEMENT OR USES THE CARD. THE "CARD" MEANS ANY CREDIT CARD ISSUED TO YOU OR THOSE
DESIGNATED BY YOU UNDER THE TERMS OF THIS AGREEMENT. "ACCOUNT" MEANS YOUR CREDIT CARD ACCOUNT. "WE", "US", "OUR" AND THE "CREDIT UNION" MEANS GOLDEN 1 CREDIT
UNION OR ITS SUCCESSORS. BY USING OR ACTIVATING YOUR CARD, YOU AGREE TO ALL OF THE TERMS AND CONDITIONS SET FORTH HEREIN.

process or if you have a judgment or tax lien filed against you; (6) you make any
false, inaccurate, or misleading statements in any credit application or credit
update; (7) we, in good faith, believe that your ability to repay what you owe is or
soon will be impaired, or that you are unwilling to make your payments; (8) you
exceed your available credit limit; (9) you become subject to incompetency; (10)
your payment is returned for any reason; (11) your Golden 1 membership is
terminated or your membership privileges are suspended; or (12) there has been
a material adverse change in your creditworthiness.
Suspension of Electronic Services and Access to Share Accounts. Subject to
applicable law, we may suspend some or all electronic services and access to
your checking or other account(s) if you become delinquent on any of your credit
card or deposit obligations to us or you cause a loss to us. We shall not be liable to
you in any regard in connection with such suspension of services.
Actions Upon Default: If applicable law requires a notice of default and an
opportunity to cure that default, we will grant you those rights before we exercise
our remedies. If you default, upon the expiration of any applicable rights to cure
that default, we may declare all amounts immediately due and payable, and you
must immediately pay us the total unpaid balance (as well as interest charges to
date, if allowed by applicable law), any late charges, and all collection costs
permitted under law. The principal balance in default shall bear interest at the
contract rate, or another rate if required by applicable law. If immediate payment is
demanded, you agree to continue paying interest charges and fees until what you
owe has been paid, and any shares that were given as security for your Account
may be applied towards what you owe. Even if your unpaid balance is less than
your credit limit, you will have no credit available during any time that any aspect of
your Account is in default.
Costs of Collection: You shall pay all costs incurred by us in collecting any
amount you owe or in enforcing or protecting our rights. Costs of collection include,
but are not limited to, collection agency fees. The following applies to all borrowers
except Wisconsin borrowers: Costs of collection include reasonable attorney's fees
for any action taken by an attorney who is not a salaried employee of the credit
union in order to collect this loan or preserve or protect our rights and remedies,
including, without limitation, pre-suit demands for payment, pre-suit mediation or
settlement negotiations, investigation and assessment of our rights, participation in
bankruptcy cases, matters, and proceedings (including, without limitation, filing
proofs of claim, pursuing reaffirmation agreements, attending meetings of
creditors, and pursuing complaints, motions, and objections that relate in any way
to the Credit Union's collateral or right to payment), collateral disposition, nonbankruptcy suits and/or administrative actions, and appeals. For Alabama
borrowers: attorney's fees after default shall not exceed 15% of the unpaid debt, or
such higher amount as a court may allow. For Georgia borrowers: attorney's fees
shall not exceed 15% of principal and accrued interest, or such higher amount as
a court may allow. For Wisconsin borrowers: We may collect only those costs and
fees allowed by the Wisconsin Consumer Act, other applicable Wisconsin law, or
by a court of competent jurisdiction. For Kansas borrowers: Attorney fees shall not
be in excess of 15% of the unpaid debt after default. Costs of collection may
include collection agency fees or attorney fees, but not both.
MISCELLANEOUS
Communications. We may send Card(s), billing statements and other
communications to you at any mailing address or email address in our records. If
more than one person is responsible for the Account, we can provide billing
statements and communications to only one of you.
When you give us a telephone number (including a cellular or mobile device
number) or place a telephone call to us, you are providing your express consent
permitting us (and any party acting on our behalf) to contact you at that number
about the Account and all of your other Golden 1 accounts. Your consent allows us
to make live telephone calls, send text messages, leave prerecorded or artificial
voice messages, and use automatic telephone dialing technology for informational
and Account service purposes. For example, we may place such calls or texts to
provide certain notices, investigate or prevent fraud, or contact you about the
amounts you owe to us. This express consent applies to each telephone number
that you provide to us now or in the future. Message and data rates may apply.
You may change your communication preferences at any time by any reasonable
means, including calling us at 1–877–723-3010, sending an email to
membercare@golden1.com, or writing to us at Golden 1 Credit Union, Attn:
Member Care, P.O. Box 15966, Sacramento, CA 95852-0966.
Additional Benefits/Card Enhancements. We may from time to time offer
additional services to your Account at no additional cost to you. You understand
that we are not obligated to offer such services and may withdraw or change them
at any time.
Convenience Checks. We may, at our discretion, issue checks to you which may
be used for any purpose other than making a payment for credit to your Account or
any other loan you have with us, so long as that purpose is consistent with the
terms of this Agreement. By signing such check, you authorize us to pay the item
for the amount indicated and post such amount as a cash advance to your
Account. We do not have to pay any item which would cause the outstanding
balance in your Account to exceed your credit limit.
9011 LASER FPDF FI1000406 Rev 5-2019

Credit Information. We may from time to time request personal information from
you or obtain credit reports from the credit reporting agencies for the purpose of
updating your credit status. We may reduce your credit limit or refuse to extend
new credit as a result of periodic review of your creditworthiness. Your failure to
provide such information when requested by us may result in suspension of credit
privileges under this Agreement, including your ability to obtain any future
advances by any means. You authorize us to investigate your credit standing when
opening or reviewing your Account. You authorize us to disclose information
regarding your Account to consumer reporting agencies and others. The
information we provide may appear on your consumer reports. If you think we
provided incorrect information, write to us and we will investigate in accordance
with the billing rights provision contained herein.
Enforcement. We do not lose our rights under this or any related agreement if we
delay enforcing them. If any provision of this or any related agreement is
determined to be unenforceable or invalid, all other provisions remain in full force
and effect.
Returns and Adjustments. Merchants and others who honor the Card may give
credit for returns or adjustments, and they will do so by submitting a credit slip
which will be posted to your Account. We do not control when a merchant sends
us your refund. We also need a reasonable amount of time after we receive a
merchant refund to process it. If your credits and payments exceed what you owe
us, the amount will be applied against future purchases and cash advances. If the
credit balance amount is $1 or more, it will be refunded upon your written or verbal
request. If a credit balance amount of $1 or more remains in the account for more
than six months, we will make a good faith effort to refund the amount to you.
Merchant Disputes. We are not responsible for the refusal of any merchant or
financial institution to honor your Card. Also, we are not responsible for disputes
regarding goods or services that you purchase with the Card unless: (a) your
purchase was made in response to an advertisement we sent or participated in
sending you; or (b) your purchase cost more than $50 and was made from a
merchant in your state or within 100 miles of your home; and only if you have
made a good faith attempt, but have been unable to obtain satisfaction from the
merchant. You must resolve all other disputes directly with the merchant. We do
not warrant any merchandise or services purchased by you with the Card.
Copy Received. You acknowledge that you have received a copy of this
Agreement.
Governing Law. This Agreement shall be construed under federal law and state
law in the state of California. All disputes shall be venued in Sacramento County,
California. Operating regulations of Visa may also apply. This Agreement is the
contract that applies to all transactions even though the sales, cash advance,
convenience check, credit or other slips you sign or receive may contain different
terms.
Platinum Rewards Cash Rebate Program. You will earn cash rebates on net
qualified purchases (less credits, returns and adjustments) for each $1 spent.
Cash rebates have no maximum limit. Balance transfers, cash advances and
cash-equivalent transactions, such as purchases of money orders or gift cards,
and certain other purchases/transactions do not earn rebates. We reserve the right
to determine in our sole discretion whether a particular transaction is a qualified
purchase. A 3% cash rebate is offered on net qualified purchases at eligible gas,
grocery and restaurant merchants. A 1% cash rebate is offered on all other net
qualified purchases.
A 3% cash rebate is available on purchases processed under specific Merchant
Category Codes (MCC). Merchants are assigned an MCC based on the type of
products or services they primarily offer. We do not determine the MCC
classifications, but we use these classifications to define our cash-back rebate
categories. Our 3% cash rebate is available only on purchases with eligible
Service Stations (MCC 5541), Automated Fuel Dispensers (MCC 5542), Grocery
Stores or Supermarkets (MCC 5411), and Eating Places and Restaurants (MCC
5812). Our 3% cash rebate does not include wholesale clubs or eating
establishments such as quick-service restaurants. Purchases processed through
third-party payment accounts (such as PayPal), online or mobile wallets, or similar
technology will not qualify for a rebate if the technology is not set up to process the
purchase in an eligible merchant category.
If your Account is in default under this Agreement, it will forfeit all accumulated
rebates. Additionally, rebates are only calculated for accounts that are not in
bankruptcy status, that have not been closed or frozen and have no amount that
has been charged-off. To receive a rebate, a Golden 1 share account with the
required minimum balance must be maintained. The rebate will be credited by
deposit to your Golden 1 share account by the end of each month and after the
close of the Account's monthly billing cycle. Accounts closed prior to their monthly
closing statement date forfeit all unpaid rebates earned during the prior period. We
reserve the right to change or discontinue this program and its benefits and
features at any time in our sole discretion.
STATE NOTICES:
NOTICE FOR COSIGNERS IN ARIZONA:
Marital Community Property Joinder: If you are a married Arizona resident
signing documents in connection with this loan as a cosigner, your signature

page 3 of 4

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

IN THIS AGREEMENT, "YOU" AND "YOUR" MEAN ANY PERSON WHO ACCEPTS THIS AGREEMENT OR USES THE CARD. THE "CARD" MEANS ANY CREDIT CARD ISSUED TO YOU OR THOSE
DESIGNATED BY YOU UNDER THE TERMS OF THIS AGREEMENT. "ACCOUNT" MEANS YOUR CREDIT CARD ACCOUNT. "WE", "US", "OUR" AND THE "CREDIT UNION" MEANS GOLDEN 1 CREDIT
UNION OR ITS SUCCESSORS. BY USING OR ACTIVATING YOUR CARD, YOU AGREE TO ALL OF THE TERMS AND CONDITIONS SET FORTH HEREIN.

confirms that this loan obligation is being incurred in the interest of your marriage
or family and that you will promptly notify your spouse and cause your spouse to
consent to your and your spouse's marital property being bound by your loan
obligations in accordance with Ariz. Rev. Stat. § 25-214 or other applicable law.
You agree that the lender may delay disbursing your loan until the lender has
received your spouse's consent in a form reasonably acceptable to the lender. You
further affirm that no provision of any marital property agreement or court decree
adversely affects your or lenders interest in this loan obligation.
NOTICE TO UTAH BORROWERS: This written agreement is a final expression
of the agreement between you and the Credit Union. This written agreement may
not be contradicted by evidence of any oral agreement.

NOTICES TO WISCONSIN BORROWERS: (1) If you are married and are
extended individual credit, Wis. Stat. 766.56(3)(b) requires us to notify your spouse
of the extension of credit. If we receive written notice of termination from your
spouse pursuant to Wis. Stat. Section 766.565(5), we may declare you in default
of the Agreement and call the entire extension of credit due and payable
notwithstanding Wis. Stat. Sections 425.103 and 425.105. If the Agreement is
called due and payable, you may have certain rights to cure the default. (2)
Additionally, no provision of a marital property agreement, a unilateral agreement
under Wis. Stat. 766.59, or a court decree under Wis. Stat. 766.70 adversely
affects our interests unless prior to the time the credit is extended, we are
furnished with a copy of the agreement or statement, or have actual knowledge of
the adverse provision when the obligation is incurred.

IMPORTANT DISCLOSURES FOR ACTIVE MEMBERS OF THE MILITARY AND THEIR DEPENDENTS:
The following applies if at the time this loan is made you are an active member of the military or a dependent (as those terms are defined in the Military
Lending Act (MLA), 10 U.S.C. 987 and its implementing regulations (“MLA”)), and (a) your loan is unsecured or secured by personal property or a vehicle
that you did not purchase with the proceeds of the loan; or (b) it is otherwise determined by law that the MLA applies to your loan. If this loan is a revolving
line of credit or credit card, the MLA ceases to apply at any time during which you are not a member of the military or a dependent (as defined in the MLA).
1. NOTICE: Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions of consumer credit.
In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent may not exceed an annual percentage rate of 36
percent. This rate must include, as applicable to the credit transaction or account: the costs associated with credit insurance premiums or debt protection
fees; fees for ancillary products sold in connection with the credit transaction; any application fee charged (other than certain application fees for
specified credit transactions or accounts); and any participation fee charged (other than certain participation fees for a credit card account). To receive
this notice verbally, please call 844-536-7431 24 hours a day, 7 days a week.
2. Any reference in this consumer credit contract to the following are hereby inapplicable to your loan: (a) Mandatory arbitration; (b) Any requirement(s) to
waive your rights to legal recourse under any applicable state or federal law; (c) Any demands or requirements construed as unreasonable notice from
you in order to exercise your legal rights; or (d) Prepayment penalties.
3. Any provisions in your consumer credit contract, loan, security, or account agreements that are determined to be inconsistent with or contradictory to
these disclosures or the MLA (as they may be changed or amended from time to time) are inapplicable with regard to this loan. However, all other terms
and conditions of the consumer credit contract shall remain in full force and effect.

YOUR BILLING RIGHTS - KEEP THIS NOTICE FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the
Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
Golden 1 Credit Union
Attention: Card Investigations
P.O. Box 15966
Sacramento, CA 95852-0966
In your letter, give us the following information:
1. Your name and Account number.
2. The dollar amount of the suspected error.
3. If you think there is an error on your bill, describe what you believe is wrong
and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you
want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do,
we are not required to investigate any potential errors and you may have to pay
the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your
letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or
explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on
that amount.
• The charge in question may remain on your statement, and we may continue
to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for
the remainder of your balance.
• We can apply any unpaid amount against your credit limit.

9011 LASER FPDF FI1000406 Rev 5-2019

After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any
interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in
question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then
report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us
within 10 days telling us that you still refuse to pay. If you do so, we cannot report you
as delinquent without also reporting that you are questioning your bill. We must tell
you the name of anyone to whom we reported you as delinquent, and we must let
those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the
amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your
credit card, and you have tried in good faith to correct the problem with the merchant,
you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles
of your current mailing address, and the purchase price must have been more
than $50. (Note: Neither of these are necessary if your purchase was based
on an advertisement we mailed to you, or if we own the company that sold
you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with
cash advances from an ATM or with a check that accesses your credit card
Account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase,
contact us in writing at:
Golden 1 Credit Union
Attention: Card Investigations
P.O. Box 15966
Sacramento, CA 95852-0966
While we investigate, the same rules apply to the disputed amount as discussed
above. After we finish our investigation, we will tell you our decision. At that point, if
we think you owe an amount and you do not pay, we may report you as delinquent.

page 4 of 4

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

